Audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grant to the Texas Tech University Police Department
Lubbock, Texas
GR-80-01-017	
August 3, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the Office of Community Oriented Policing Services (COPS) to the Texas Tech University Police Department (police department), Lubbock, Texas.  The purpose of the grant was to enhance community policing.  The police department was awarded a total of $356,655 to hire five new police officers.

We reviewed the police department's compliance with six essential grant conditions and found weaknesses in its hiring of officers, reimbursement requests, and retention of officer positions.  We also found that remaining funds on the expired grant need to be deobligated.  As a result of the deficiencies identified below, we question $355,106 in grant funds received and recommend an additional $1,549 be put to better use. 1

The police department used grant funds to pay for officers initially hired as university-funded officers.  In our judgment, the grantee is in violation of the COPS non-supplanting requirement. 

	The police department did not retain the five grant-funded positions. 

	The police department charged $1,552 in unallowable fringe benefit costs to the grant.

	The police department reported on its application and 1998 Progress Report that funding was established on a 2-year basis by the Texas Legislature.  However, the police department operated on a 12-month budget cycle.    

	The grant expired on August 31, 2000, and remaining funds totaling $1,549 should be deobligated as funds to better use.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix IV for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.